Audit Report




OIG-13-046
GENERAL MANAGEMENT: BEP’s Administration of the Burson-
Marsteller Public Education and Awareness Contract Was
Deficient
August 13, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents


Audit Report.................................................................................. 1

Results in Brief ................................................................................................ 2

Background ..................................................................................................... 4

Findings .......................................................................................................... 7

    Deficient Administration of the 2006 Burson-Marsteller Contract ...................... 7

        Missing Contract Documentation .............................................................. 8

        Inadequate Subcontractor Oversight ......................................................... 10

        No Evidence of Price Negotiations for Certain Task Orders ........................... 12

        Non-compliance with the FAR in Soliciting, Awarding, and Administering the
        Task Orders for Materials Fulfillment ......................................................... 14

        Lax Process for Approving Payments ........................................................ 17

        Improper COR Contact with the Contractor When Developing Government
         Cost Estimates ....................................................................................... 18

    Weak Acquisition Management, Human Capital, and Policies and Procedures ..... 19

        Known Contracting Problems Not Addressed ............................................. 19

        Contracting Policies and Procedures Lacking .............................................. 20

        Acquisition Staff Vacancies ..................................................................... 21

Recommendations ............................................................................................ 22

Appendices

Appendix     1:           Objectives, Scope, and Methodology ......................................              27
Appendix     2:           Management Response .........................................................          30
Appendix     3:           Major Contributors to This Report ...........................................          37
Appendix     4:           Report Distribution ................................................................   38


                          BEP’s Administration of the Burson-Marsteller Public Education and                  Page i
                          Awareness Contract Was Deficient (OIG-13-046)
Abbreviations

  BEP           Bureau of Engraving and Printing
  CO            contracting officer
  COR           contracting officer’s representative
  DTAP          Department of the Treasury Acquisition Procedures
  FAR           Federal Acquisition Regulation
  FFP           firm-fixed-price
  FMFIA         Federal Managers Financial Integrity Act of 1982
  FRB           Board of Governors of the Federal Reserve System
  IGCE          independent government cost estimate
  OMB           Office of Management and Budget
  OPE           Treasury’s Office of the Procurement Executive
  T&M           time and materials




                BEP’s Administration of the Burson-Marsteller Public Education and   Page ii
                Awareness Contract Was Deficient (OIG-13-046)
                                                                                           Audit
OIG
The Department of the Treasury
                                                                                           Report
Office of Inspector General




                      August 13, 2013

                      Larry R. Felix
                      Director
                      Bureau of Engraving and Printing

                      This report provides the results of our audit of the Bureau of
                      Engraving and Printing’s (BEP) contracting activities related to
                      the 2006 Public Education and Awareness Program contract
                      with Young & Rubicam, Inc., doing business as
                      Burson-Marsteller (TEP-07-003). We conducted this audit in
                      response to concerns raised by the Board of Governors of the
                      Federal Reserve System (FRB) regarding BEP’s contracting
                      practices. FRB became aware of potential problems when
                      reviewing BEP’s Burson-Marsteller contract file in preparation for
                      the transfer of responsibility for the public education and
                      awareness program effective October 1, 2011.

                      Our objective was to determine whether BEP conducted its
                      contracting activities in accordance with federal and Department
                      of the Treasury (Treasury) acquisition requirements and BEP
                      policies and procedures. While we initially intended to sample
                      other BEP contracts as part of this audit, we decided to limit our
                      review to the 2006 Burson-Marsteller contract. This decision
                      was based on (1) BEP’s lack of progress in implementing
                      corrective actions related to reviews performed in 2006 and
                      2008 by Treasury’s Office of the Procurement Executive (OPE), 1
                      (2) the consistency of our findings on the Burson-Marsteller
                      contract with those in OPE’s reviews, (3) the transfer of some



1
 OPE is responsible for assisting Bureau Chief Procurement Officers with improving the operational
efficiency and effectiveness of programs and providing contracting offices with an acquisition
management consulting and support service. OPE schedules bureau acquisition assessments based
on risk, with assessments generally conducted every 3 years.

                      BEP’s Administration of the Burson-Marsteller Public Education and         Page 1
                      Awareness Contract Was Deficient (OIG-13-046)
                       BEP procurement activities to other bureaus within Treasury, 2
                       and (4) the concerns raised by FRB. We believe that until BEP
                       management addressed the problems that had been previously
                       identified, additional contract reviews would not be a wise use
                       of our resources and only reinforce the findings in this report and
                       OPE’s prior reports.

                       We performed our audit fieldwork from April 2011 to April 2013.
                       Appendix 1 contains a more detailed description of our audit
                       objectives, scope, and methodology.


Results in Brief
                       BEP did not maintain complete contract file documentation nor did
                       it properly administer the 2006 contract with Burson-Marsteller.
                       We consider BEP’s lack of oversight and management of the
                       contract a significant deficiency in contracting practices that is the
                       result of BEP not addressing known contracting problems,
                       effectively managing acquisition personnel and staffing levels, nor
                       implementing necessary policies and procedures.

                       Due to the poor condition of the internal control environment over
                       the public education and awareness program contract, we are
                       recommending that BEP determine if the problems are systemic to
                       overall contracting practices and whether the deficiencies should
                       be reported as a material weakness in accordance with Treasury’s
                       Federal Managers Financial Integrity Act of 1982 (FMFIA) 3 process.
                       We are also recommending that BEP (1) establish standardized
                       acquisition policies and procedures, train employees in the use of
                       the new policies and procedures, and implement an accountability
                       plan to ensure they are followed; (2) perform an inventory of all
2
  On February 13, 2012, the Treasury Senior Procurement Executive notified bureaus of a Treasury
initiative to consolidate all general procurement operations in the Department to a shared service
provider. Under this initiative, shared services are to be provided by either the Bureau of the Public
Debt’s Administrative Resource Center or the Internal Revenue Service. However, procurements in
direct support of manufacturing at BEP will remain at BEP. Implementation of the initiative occurred
in March 2013. Effective in October 2012, the Bureau of the Public Debt and the Financial
Management Service were consolidated and redesignated as the Bureau of the Fiscal Service.
3
  FMFIA requires each executive agency to have in effect internal accounting and administrative
controls established in accordance with standards prescribed by the Comptroller General. Each year
executive agencies must prepare a statement asserting that the agency’s system of internal
accounting and administrative controls fully complies with the standards.

                       BEP’s Administration of the Burson-Marsteller Public Education and           Page 2
                       Awareness Contract Was Deficient (OIG-13-046)
                       contract files to identify missing documents and remediate files as
                       necessary; (3) implement an accountability mechanism to ensure
                       that existing policies requiring management to timely address
                       recommendations from internal and external reviews be followed;
                       (4) increase monitoring of the acquisition function’s operational
                       effectiveness, internal controls, and compliance with laws and
                       regulations; (5) ensure that staffing levels are commensurate with
                       the bureau’s acquisition activities; and (6) determine whether the
                       contractor made a good faith effort to comply with its
                       subcontracting plan for the 2006 contract and take action to
                       assess liquidated damages as appropriate.

                       Due to BEP’s deficient oversight of the 2006 contract with
                       Burson-Marsteller, we have initiated a separate audit of the
                       contractor’s records. The objectives of that separate audit are to
                       assess Burson-Marsteller’s accounting and labor recording system
                       to ensure it is adequate to track and invoice costs in accordance
                       with the contract and the Federal Acquisition Regulation (FAR).
                       That audit is on-going.

                       In February 2012, we discussed our preliminary findings with BEP
                       senior management and a representative from OPE. To address
                       these findings and improve BEP’s internal controls over
                       procurement, in May 2012 OPE placed conditions limiting BEP’s
                       procurement authority. 4 Since that time, BEP and OPE have jointly
                       developed an action plan to address the identified deficiencies.
                       Actions taken by BEP included hiring a contractor to perform a
                       quality assurance review of contract actions, reviewing file
                       management practices, and identifying and providing training to
                       acquisition staff.



4
  Conditions placed on BEP’s procurement authority included the requirement that BEP’s Office of
Chief Counsel review all proposed contract awards valued at $100,000 or greater for legal
sufficiency. In addition, BEP was required to fund an OPE quality assurance review of all
work-in-process contracts as well as an overall organizational review of the BEP Office of
Acquisitions. The first report based on these reviews was issued in January 2013 and addressed
quality assurance reviews of work-in-process contracts. Specifically, the report addressed
weaknesses in (1) BEP’s file structure and documentation, (2) inaccurate Federal Procurement Data
System information, and (3) contract writing procedures and use of FAR clauses. As of April 2013,
at BEP’s request, additional reviews were still being conducted. OPE plans to re-assess the conditions
placed on BEP’s procurement authority in September 2013.

                       BEP’s Administration of the Burson-Marsteller Public Education and         Page 3
                       Awareness Contract Was Deficient (OIG-13-046)
                       In a written response, BEP management concurred with our
                       recommendations and provided a summary of actions taken and
                       planned to implement the recommendations. The response also
                       stated that BEP had taken actions to address most, if not all of
                       the recommendations. The management response is summarized
                       in the Recommendations section of the report and the text of the
                       response is included as appendix 2. We believe BEP’s corrective
                       actions, taken and planned, are responsive to our
                       recommendations.

Background
                       Public education and awareness programs are intended to
                       promote a seamless introduction of new currency into global
                       commerce. Before a redesigned denomination of U.S. currency is
                       issued into circulation, BEP and its key partners, FRB and U.S.
                       Secret Service (Secret Service), consider it important that
                       domestic and international users and cash handlers are aware of
                       the changes in the note's features so they will accept and use
                       the currency. Since redesigned currency co-circulates for a
                       period of time with the previously issued designs, the target
                       audiences also need to understand that older currency designs
                       remain valid legal tender and those older notes will not be
                       devalued. Until transferred to FRB in fiscal year 2012, BEP
                       administered the public education and awareness programs in
                       coordination with FRB and Secret Service.

                       BEP launched a global public education and awareness program
                       in 2002 for the introductions of the redesigned $20 note
                       (October 2003), $50 note (September 2004), and $10 note
                       (March 2006). To support this effort, BEP awarded a 5-year
                       contract that had a time and materials (T&M) 5 component and a
                       firm-fixed-price (FFP) component, to Burson-Marsteller. At
5
  A T&M contract provides for acquiring supplies or services on the basis of direct labor hours, which
include wages, overhead, general and administrative expenses, and profit at specified fixed hourly
rates; and the actual cost for materials. This type of contract provides no positive profit incentive to
the contractor for cost control or labor efficiency. Therefore, appropriate government monitoring of
contractor performance is required to provide reasonable assurance that contractors use efficient
methods and cost controls. With a T&M contract, the contract provides a ceiling price that the
contractor exceeds at its own risk. Due to the relative risk of the contract type to the government,
T&M contracts may only be used if the contracting officer provides written justification that no other
type of contract is suitable.

                       BEP’s Administration of the Burson-Marsteller Public Education and            Page 4
                       Awareness Contract Was Deficient (OIG-13-046)
completion, expenditures under the contract totaled
$55.2 million.

After the redesigned $10 note was introduced in March 2006,
BEP launched the public education and awareness program for
the introduction and release of the redesigned, or NexGen, $5
and $100 notes. To assist with this effort, BEP awarded
Burson-Marsteller another 5-year contract with a ceiling of
$36.2 million, but only with a T&M component. Over the
contract period, the contract ceiling was increased to
$57.5 million. BEP officials told us that the ceiling was increased
due to unanticipated costs to provide the public with brochures
and other printed materials on the currency redesign (an activity
referred to as “materials fulfillment”) as well as an extended
period of performance due to delays in the NexGen $100 note
issuance and underestimated program costs.

The scope of work under the 2006 contract included educating
the public through completing tasks associated with research,
program branding, stakeholder and media outreach, educational
material development, materials fulfillment, and an interactive
website. While the scope of the contract included the
development of public education materials, the printing of all
materials was done under a separate agreement between BEP
and the Government Printing Office. For the NexGen $5 and
$100 note public education and awareness program, printing
costs totaled $2.9 million.

For the NexGen $5 note issued in March 2008, the public
education and awareness program emphasized domestic and
Latin American markets and the cash handling and transit
industries. The public education and awareness program for the
yet-to-be issued NexGen $100 note was anticipated to focus on
the gaming industry and international markets. For that effort,
printed educational material for the NexGen $100 note was
published in 18 languages. Figure 1 on the next page is an
example of a foreign language educational brochure produced for
the NexGen $100 note education program in Vietnamese.




BEP’s Administration of the Burson-Marsteller Public Education and   Page 5
Awareness Contract Was Deficient (OIG-13-046)
                      Figure 1. NexGen $100 Take One Card in Vietnamese (front and back)




                       Source: BEP’s Public Education and Awareness Program Office

                       The NexGen $100 note was unveiled in April 2010 with
                       issuance planned for February 2011. However, this release was
                       delayed due to production problems. 6 As a result of these
                       problems, FRB announced in April 2013, a new release date of

6
  Bill Manufacturing: Improved Planning and Production Oversight Over NexGen $100 Note Is
Critical, OIG-12-038 (Jan. 24, 2012). As discussed in the report, we found that BEP did not
(1) perform necessary and required testing to resolve technical problems before starting full
production of the NexGen $100 note, (2) implement comprehensive project management for the
NexGen $100 note program, nor (3) adequately complete a comprehensive cost-benefit analysis for
the disposition of the approximately 1.4 billion finished NexGen $100 notes already printed but not
accepted by FRB.

                       BEP’s Administration of the Burson-Marsteller Public Education and        Page 6
                       Awareness Contract Was Deficient (OIG-13-046)
           October 8, 2013. The delay also resulted in planned work under
           the public education and awareness program contract not being
           completed. BEP spent about $33 million for the contracted
           services. According to BEP, approximately $9 million and
           $24 million were spent on the redesigned NexGen $5 note and
           redesigned NexGen $100 note, respectively.

           After the public education and awareness program contract
           ended in September 2011, FRB assumed responsibility for the
           program effective October 1, 2011.

Findings

           Deficient Administration of the 2006 Burson-Marsteller
           Contract

           BEP did not properly administer the 2006 Burson-Marsteller
           contract. Contract administration weaknesses included:
           (1) missing contract documentation; (2) inadequate
           subcontractor oversight; (3) no evidence of price negotiations for
           certain task orders; (4) non-compliance with the FAR in
           soliciting, awarding, and administering the task order for
           materials fulfillment; (5) a lax process for approving payments;
           and (6) improper contracting officer’s representative (COR)
           contact with the contractor when developing government cost
           estimates. We attribute these deficiencies to BEP’s failure to
           (1) correct contracting problems identified by prior reviews and
           (2) implement necessary contracting policies and procedures.
           Also impacting contract administration was BEP’s inability to
           maintain adequate acquisition staffing levels, as well as turnover
           in key acquisition personnel. In terms of turnovers, five different
           contracting officers (CO) were assigned to the 2006
           Burson-Marsteller contract during its 5-year life. While there was
           some continuity provided by the fact that the same individual
           served as the COR during that time, we noted problems with the
           way COR responsibilities were carried out.




           BEP’s Administration of the Burson-Marsteller Public Education and   Page 7
           Awareness Contract Was Deficient (OIG-13-046)
Missing Contract Documentation

According to FAR Subpart 4.8 Government Contract Files, the
head of each office performing contract administration functions
shall establish files containing the records of all contractual
actions and the documentation in the files shall be sufficient to
constitute a complete history of the transaction in the event of
litigation or congressional inquiries. The payment office is
required to maintain invoices, vouchers, and supporting
documents. The Department of the Treasury Acquisition
Procedures (DTAP) supplements the FAR and has a Contract File
Content Checklist for standardized minimum documentation
requirements. The checklist may be tailored to bureau-specific
requirements, but should maintain its basic structure and intent.

Consistent with the contract file documentation findings in
OPE’s 2006 and 2008 reports, BEP’s Burson-Marsteller contract
file was missing critical documents and was not maintained in
accordance with federal and Treasury requirements. Missing
contract file documentation included the following:

 • type and extent of market research conducted to establish
   pricing
 • justification for the need of a T&M contract
 • pre-award legal review of the contract
 • contract solicitation
 • price proposals
 • oral presentation records
 • technical proposals
 • contractor’s subcontracting plan
 • technical evaluations of proposals
 • record of negotiations
 • approval of the award
 • an original, signed contract
 • post-award conference orientation between Government
   representatives and the contractor
 • security requirements and evidence of required contractor
   clearances
 • CO consent to proposed subcontracts
 • subcontracting reports submitted by the contractor


BEP’s Administration of the Burson-Marsteller Public Education and   Page 8
Awareness Contract Was Deficient (OIG-13-046)
                        • chronological list identifying the CO at the time of contract
                          award and all successor COs, with inclusive dates of
                          responsibility
                        • original copies of modifications and supporting documents,
                          signed and executed by the contract administration office
                        • modification for the increase in the contract ceiling
                        • payment file invoice support documentation for 2007 through
                          2009

                       Even though the FAR states that contracts and related records or
                       documents for contracts that exceed the simplified acquisition
                       threshold for acquisitions must be retained for 6 years and 3
                       months after final payment, 7 BEP was unable to locate the pre-
                       award files for both 2002 and 2006 public education and
                       awareness program contracts. These files should have included
                       all proposals BEP received in response to its solicitations. When
                       asked about this, the BEP Chief of Acquisitions attributed the
                       missing files to employee turnover and the lack of adequate file
                       retention policies and procedures. 8 In a separate but related
                       discussion, the former BEP Chief of Acquisitions told us that the
                       last employee known to have possession of the pre-award files
                       was no longer working at BEP, and the files were not found after
                       the employee’s departure. Without these critical documents, we
                       could not conclude whether BEP adequately planned, solicited,
                       evaluated, and awarded the contracts in accordance with federal
                       and Treasury requirements and BEP policies and procedures.

                       In an attempt to obtain sufficient documentation for our audit,
                       we requested missing documentation from Burson-Marsteller.
                       The documentation provided by the contractor included their
                       technical and management proposals for the 2002 and 2006
                       contracts, subcontracting documentation for the 2006 contract,
                       and certain invoice documents. While the documentation
                       provided was of some help to our audit, the contractor could not
                       be expected to provide all documentation necessary for the
                       contract file, especially the pre-award documentation such as the
                       proposals from the unsuccessful bidders.


7
 FAR 4.805 Storage, handling, and disposal of contract files
8
 The individual serving as BEP Chief of Acquisitions during our audit assumed this position in March
2010. He previously served as the Treasury Department’s Director of Procurement Services.

                       BEP’s Administration of the Burson-Marsteller Public Education and         Page 9
                       Awareness Contract Was Deficient (OIG-13-046)
                        Inadequate Subcontractor Oversight

                        BEP did not ensure that Burson-Marsteller’s use of
                        subcontractors complied with the contract, the FAR, or the Small
                        Business Act. 9 Based on our interviews with the various COs
                        responsible at different times for the 2006 contract and our
                        review of the contract files, we found no evidence that any of
                        the COs approved subcontracts awarded or monitored the
                        contractor’s compliance with its subcontracting plan.

                        Subcontracts Not Approved by Contracting Officers

                        According to FAR Subpart 44.2 Consent to Subcontracts, the
                        CO is responsible for ensuring that proposed subcontracts are
                        appropriate for the risks involved and consistent with sound
                        business judgment and contracting practices. If the contractor
                        does not have an approved purchasing system, consent to
                        subcontract by the CO is required for certain subcontracts.
                        Additionally, the FAR states that careful and thorough
                        consideration for a subcontract is necessary when, among other
                        things, close working relationships or ownership affiliations exist
                        between the prime and subcontractor or subcontracts are
                        proposed on a cost-reimbursement, T&M, or labor-hour basis.

                        BEP did not properly handle 36 subcontracts worth $7.5 million
                        during the 5-year contract period. Furthermore, Burson-Marsteller
                        awarded 14 of the 36 subcontracts, worth $5.8 million, to
                        affiliates. Contrary to the FAR, BEP did not verify the adequacy
                        of the contractor’s purchasing system or approve the proposed
                        subcontracts.

                        Instead of a CO approving subcontractors on the 2006 contract,
                        we found the COR, acting outside her authority, approved the
                        subcontractors. The COR communicated directly with
                        Burson-Marsteller regarding the purpose of the proposed
                        subcontracts, the capabilities of the proposed subcontractors,
                        costs, and the basis for the contractor’s recommendation of
                        desired subcontractors. When questioned about this, the COR
                        told us that she was not aware that she was acting outside her


9
    Public Law 85-536

                        BEP’s Administration of the Burson-Marsteller Public Education and   Page 10
                        Awareness Contract Was Deficient (OIG-13-046)
                       authority and stated that she should have been more
                       knowledgeable. Furthermore, several COs we interviewed told us
                       they did not approve subcontractors because they were unaware
                       it was their responsibility and thought it was Burson-Marsteller’s
                       responsibility as the prime contractor.

                       Subcontracting Plan Not Monitored

                       The Small Business Act expresses the Government’s policy of
                       assisting and protecting the interests of small and specifically
                       classified businesses 10 to preserve free competition and ensure
                       that a fair proportion of Government contracts and subcontracts
                       are awarded to such businesses. FAR Part 19 Small Business
                       Programs contains provisions to implement the
                       acquisition-related sections of the Small Business Act by
                       establishing the responsibilities of contracting personnel to
                       evaluate subcontracting plans 11 and monitor a contractor’s
                       compliance with those plans. According to FAR 19.704
                       Subcontracting plan requirements, the contractor is responsible
                       for submitting annual and semi-annual subcontracting reports for
                       the Government to determine the extent of compliance by the
                       contractor with the subcontracting plan. The CO is responsible
                       for ensuring the reports are completed and submitted.

                       FAR also states that at the completion of the contract or any
                       option year, the CO is responsible for determining if the
                       contractor made a good faith effort to comply with its
                       subcontracting goals. If a contractor fails to make a good faith
                       effort to comply with its subcontracting plan and goals are not




10
   The Small Business Act has provisions for exclusive competitive participation by small businesses;
socially and economically disadvantaged businesses; businesses located in historically underutilized
business zones; service-disabled veteran-owned businesses; economically disadvantaged women-
owned businesses; and women-owned small businesses.
11
   FAR Subpart 19.7 The Small Business Subcontracting Program states that subcontracting plans
are prepared by the contractor and are required for negotiated non-construction acquisitions that are
expected to exceed $650,000 and that have subcontracting possibilities. Some of the required items
in the subcontracting plan include separate percentage goals for using small businesses, statement of
the total dollars planned to be subcontracted to small businesses, and a description of the efforts the
contractor will make to ensure that small and specifically classified businesses have an equitable
opportunity to compete for subcontracts.

                       BEP’s Administration of the Burson-Marsteller Public Education and         Page 11
                       Awareness Contract Was Deficient (OIG-13-046)
                       achieved, the Government may seek liquidated damages from
                       the contractor. 12

                       BEP’s contract file did not contain subcontracting reports filed by
                       Burson-Marsteller. However, with the assistance of BEP’s Small
                       Business Representative (an employee new to that position at
                       the time of our audit), we obtained the reports from a centralized
                       Government database. Burson-Marsteller’s final subcontracting
                       report showed that at the completion of the contract, it did not
                       meet its subcontracting goals. Although the contractor submitted
                       the required subcontracting reports, we found no evidence that
                       BEP’s Office of Acquisitions acknowledged receipt of the reports
                       or reviewed them for compliance with the submitted
                       subcontracting plan. As a result, there was no evidence that BEP
                       determined whether Burson-Marsteller had made a good faith
                       effort to comply with the subcontracting plan. In the case of this
                       contract, the potential liquidated damages for a lack of a good
                       faith effort were approximately $460,000.

                       When we discussed the lack of subcontractor oversight with the
                       various COs assigned to the contract, we found they lacked an
                       understanding of the requirements to approve and monitor
                       subcontracts. The CO responsible for the contract at the time of
                       our audit acknowledged that BEP did not carry out the required
                       responsibilities.

                       No Evidence of Price Negotiations for Certain Task Orders

                       We found no evidence that BEP engaged in price negotiations
                       with Burson-Marsteller before awarding task orders for Option
                       Year 3 (2010) and Option Year 4 (2011). Although the labor
                       rates were established at the time of award of the master
                       contract, the CO provided no explanation for why the
                       contractor’s proposed labor hours or mix of labor hours for 2010
                       and 2011 were considered reasonable. Moreover, the task order

12
  According to FAR 19.705-7 Liquidated damages, in determining whether a contractor failed to
make a good faith effort to comply with its subcontracting plan, a CO must look to the totality of the
contractor’s actions, consistent with the information and assurances provided in its plan. Liquidated
damages are defined as the amount of damages attributable to the contractor’s failure to comply and
shall be an amount equal to the actual dollar amount by which the contractor failed to achieve each
subcontracting goal.

                       BEP’s Administration of the Burson-Marsteller Public Education and        Page 12
                       Awareness Contract Was Deficient (OIG-13-046)
                       prices were based on total labor hours that were substantially
                       higher than the independent government cost estimates (IGCE)
                       prepared by the COR. 13 In the end, the task orders for these
                       2 years were issued at exactly the same prices or at higher
                       prices than proposed by Burson-Marsteller and were $5.5 million
                       higher than the IGCE. It should be noted that for Option Year 1
                       (2008) and Option Year 2 (2009), the IGCE exceeded the
                       contractor’s proposed prices but BEP nonetheless was
                       successful in negotiating prices that were below that of the
                       contractor’s proposal.

                       Table 1 shows the awarded amounts compared with the IGCE
                       prepared by the COR and the amount proposed by the contractor
                       for the contract period.

                       Table 1. Burson-Marsteller Contract Task Order Price Comparison (in millions)


                                                                         Task Order Price
                                                                             Burson-
                                                                           Marsteller
                         Year                                   IGCE       Proposed          Awarded
                         Base Year (2007)                       $7.6             $7.0           $7.0
                         Option Year 1 (2008)                  $18.3            $15.9          $15.7
                         Option Year 2 (2009)                  $20.1            $18.6          $17.8
                         Option Year 3 (2010)                  $14.6            $19.2          $19.3
                         Option Year 4 (2011)                   $2.2             $3.0           $3.0
                        Source: BEP IGCEs and Burson-Marsteller Cost Proposals and Budget
                        Summary Sheets

                       The FAR states that the CO is responsible for negotiating the
                       final price agreement with the contractor. 14 The FAR also states
                       that to perform a cost analysis, the CO may use techniques such
                       as relying on an IGCE or performing market research. 15 In the
                       case of Burson-Marsteller, the COR provided the CO with an
                       IGCE and a technical review of the cost proposal for each task
                       order. However, the contract file contained limited

13
   An IGCE is conducted to check the reasonableness of a contractor’s cost proposal and to make
sure that the offered prices are within the budget range for a particular program. It documents the
government’s assessment of the program’s most probable cost and ensures that enough funds are
available to execute it.
14
   FAR 15.405 Price negotiation
15
   FAR 15.404 Proposal analysis

                       BEP’s Administration of the Burson-Marsteller Public Education and        Page 13
                       Awareness Contract Was Deficient (OIG-13-046)
                       documentation of price information and no evidence that a
                       meaningful analysis or negotiations occurred for 2010 and 2011.
                       In addition, in 2011 the CO did not consider modifying the price
                       of the task order in response to scope changes related to the
                       materials fulfillment task order. Specifically, in July 2011, the
                       COR completed a technical review and recommended reducing
                       the monthly FFP on the materials fulfillment task order from
                       approximately $70,000 to $50,000 because of delays
                       associated with the release of the NexGen $100 note. 16 The CO
                       did not take the COR’s recommendation into consideration or
                       renegotiate the monthly FFP amount. From that aspect alone,
                       approximately $60,000 in costs could have been avoided.

                       When asked why the task order prices were not negotiated, the
                       CO responsible for the contract from June 2010 through the end
                       of the contract stated that he believed the materials fulfillment
                       task order pricing was established as FFP at the beginning of the
                       contract and could not be modified with each task order. The
                       CO’s answer demonstrates a lack of knowledge about the FAR
                       and the contract which provided that task order pricing would be
                       determined when each task order is issued. This part of the
                       contract gives the CO the ability to negotiate each task order in
                       the best interest of BEP. In addition, the FFP amount could have
                       been modified as a result of a change in the scope of the work.
                       Related to the T&M task orders, the CO stated that there was
                       significant time pressure to issue task orders and this was a
                       factor in the lack of meaningful price negotiations.

                       Non-compliance with the FAR in Soliciting, Awarding, and
                       Administering the Task Orders for Materials Fulfillment

                       A service provided by Burson-Marsteller under the contract was
                       materials fulfillment. Materials fulfillment included the
                       distribution of educational materials, management of a call
                       center, materials inventory and storage, and administrative
                       oversight of the operation. The task orders awarded for materials
                       fulfillment were collectively the most expensive task orders

16
  The newly designed NexGen $100 note was scheduled to be issued in February 2011. In April
2010, BEP started to notice creasing issues in the production of the notes. BEP and FRB officials
stated that issuing flawed notes could cause the public to question note authenticity. In October
2010, FRB announced a delay in the issuance of the NexGen $100 notes.

                       BEP’s Administration of the Burson-Marsteller Public Education and           Page 14
                       Awareness Contract Was Deficient (OIG-13-046)
                      issued under the contract, with billings totaling $6.2 million over
                      the 5-year contract period. Each annual task order included three
                      categories of charges for materials fulfillment. The total charges
                      by category were (1) $3.2 million for labor associated with
                      oversight and call center management using a monthly FFP
                      amount, (2) $1.0 million in direct costs using a fixed-rate-per-box
                      processing fee, and (3) $2.0 million for other direct costs
                      including shipping and storage.

                      We noted problems with BEP’s process for soliciting, awarding,
                      and administering the $3.2 million of FFP charges for labor
                      associated with oversight and call center management. The FFP
                      portion ranged from approximately $55,000 to $70,000 per
                      month over the 5-year contract period. In 2006, BEP solicited
                      and awarded the contract, including materials fulfillment, as a
                      higher risk T&M contract, but did not document the justification
                      for the contract type. 17 A similar contract was awarded to
                      Burson-Marsteller in 2002 but BEP awarded a contract that
                      included both FFP and T&M task orders. In the 2002 contract,
                      BEP issued the materials fulfillment task orders as FFP for labor
                      associated with oversight and call center management. Given the
                      availability of historical data, we believe BEP contracting
                      personnel should have used the information from the 2002
                      contract to define the requirements and use a less risky contract
                      type, FFP, for the materials fulfillment task orders when soliciting
                      the 2006 contract. This was not done. In fact, the 2006
                      contract was solicited and awarded as a T&M contract in its
                      entirety.

                      For the contract type, the terms of the 2006 contract state
                      “This is a Time and Material Contract;” however, 3 months after
                      award, BEP issued the first materials fulfillment task order as a
                      “FFP with T&M (IDIQ).” 18 According to the FAR, the CO is to
                      ensure compliance with the terms of the contract and to
                      safeguard the interests of the Government in its contractual
                      relationships. 19 Initially in June 2006, in conjunction with the
                      posting of the solicitation on the FedBizOpps.gov website, a

17
   FAR 16.601(c)(1) states that a T&M contract may only be used if the CO prepares a determination
and findings that no other contract type is suitable.
18
   IDIQ stands for Indefinite Delivery, Indefinite Quantity.
19
   FAR 1.602-2 Contracting Officers’ Responsibilities

                      BEP’s Administration of the Burson-Marsteller Public Education and     Page 15
                      Awareness Contract Was Deficient (OIG-13-046)
potential bidder asked BEP to consider changing the contract to
an “IDIQ contract using Firm-Fixed-Price and Time and Materials
task/delivery orders.” BEP responded that the solicitation would
not be amended and it would remain a T&M-only contract. While
it may appear that BEP’s decision to later change the task orders
to FFP would reduce the relative contract risk for the
Government, in fact, the price agreed to by BEP was not
awarded in accordance with the terms established at the time of
solicitation, competition, and award of the master contract.
Further complicating matters, the solicitation and contract
contained inconsistencies in the use of FAR clauses, by including
FFP clauses in a T&M contract. The FFP task orders were
awarded at the T&M contract ceiling amount, as proposed by
Burson-Marsteller, without adequate competition as a FFP award
and without evidence of price negotiation.

We interviewed the various COs responsible for the contract
from 2006 to 2011 and they told us that they were unaware of
the existence of the FFP task orders. The current CO was
unfamiliar with the FFP terms of the materials fulfillment invoices
even though he approved them for payment. In addition, when
asked about how the FFP was established and why BEP agreed
to the FFP, the COR stated that the FFP was established as part
of the 2002 contract with Burson-Marsteller. She told us that
when the 2006 contract was awarded to Burson-Marsteller, the
FFP portion of the task order was simply “carried over” from the
previous contract. The COR stated that the materials fulfillment
task order was confusing to her and was an element of the
program she did not monitor. Both the COR and the CO
responsible from June 2010 through the end of the contract told
us that the contractor would be able to provide a better
explanation of the materials fulfillment task order and related
charges on the invoices. We believe that these are matters that
BEP contracting personnel should be able to explain.

In total, BEP spent $3.2 million on the FFP portion related to the
materials fulfillment oversight and call center management.
There was no evidence that the FFP portion of the task order
was competed or otherwise negotiated to help ensure the best
price for BEP.



BEP’s Administration of the Burson-Marsteller Public Education and   Page 16
Awareness Contract Was Deficient (OIG-13-046)
                       Lax Process for Approving Payments

                       Over the life of the 2006 contract, BEP paid Burson-Marsteller
                       $32.8 million. The CO responsible from June 2010 to the end of
                       the contract and the COR did not perform thorough reviews of
                       invoices submitted by the contractor thereby increasing the risk
                       of paying for unallowable, unsupported, or unreasonable costs.

                       FAR requires the CO to make a determination as to the
                       allowability of costs and approve vouchers for payment. 20 The
                       2006 contract states that both the CO and COR should receive a
                       copy of the invoice and support documentation, and no payment
                       should be made until a signature is obtained from both parties.
                       According to guidance from Office of Management and Budget’s
                       (OMB) Office of Federal Procurement Policy, A Guide to Best
                       Practices in Contract Administration, 21 CORs are in the best
                       position to assess the reasonableness of costs and expenditures
                       on invoices. The guide also states that contracting and financial
                       officials should always check the mathematical accuracy of the
                       voucher to avoid any overpayment to the contractor. In addition,
                       BEP’s Contract Administration Guide provides a list of required
                       steps constituting a proper invoice review by the CO and COR.
                       The list includes a review for accuracy of labor rates, hours
                       billed, other direct costs, subcontractor costs, and support
                       documentation.

                       Neither the CO nor the COR performed a detailed line-by-line
                       review of the invoices and no one at BEP checked the
                       mathematical accuracy of the invoices. In our interviews, BEP
                       contracting personnel expressed confusion as to their roles and
                       responsibilities related to invoice approval. The COR stated that
                       she spot-checked the invoices for names that looked familiar, the
                       reasonableness of hours charged, and to ensure the task order
                       ceiling was not exceeded. The COR, however, did not, as part of
                       her review, determine that receipts provided by the contractor
                       supported the direct costs being invoiced. The CO stated that he
                       only checked each invoice for correct labor rates and that the

20
   FAR 42.302 Contract administration functions
21
   The OMB guidance, dated October 1994, contains best practices in contract administration,
including roles and responsibilities of the administrative CO, COR, and payment office in reviewing
and processing vouchers.

                       BEP’s Administration of the Burson-Marsteller Public Education and        Page 17
                       Awareness Contract Was Deficient (OIG-13-046)
                     task order ceiling was not exceeded. According to the CO, the
                     COR was responsible for performing a thorough review of
                     invoices. Another gap in the review of invoices was that
                     personnel in BEP’s Office of Financial Management told us they
                     were not checking mathematical accuracy of the invoices and
                     would pay them if they were signed off by the CO and COR.

                     As part of our audit, we checked the mathematical accuracy of
                     all invoices related to the 2006 contract and found no errors.
                     Nevertheless, this is a function that should have been done by
                     BEP personnel before payment was made.

                     Improper COR Contact with the Contractor When Developing
                     Government Cost Estimates

                     According to the Procurement Integrity Act, the expenditure of
                     public funds requires the highest degree of public trust and an
                     impeccable standard of conduct. Those involved in federal
                     contracting should strictly avoid any conflict of interest or even
                     the appearance of a conflict of interest in Government-contractor
                     relationships. 22 In addition, BEP Circular 70-06.15 Contracting
                     Officer’s Representative Certification Program, states that the
                     COR is to maintain an arm’s-length relationship with the
                     contractor.

                     The COR, in a July 2010 email to Burson-Marsteller
                     representatives, asked the contractor for assistance in preparing
                     a cost justification memorandum requesting $10.5 million in
                     additional funding for the contract. The email ended with the
                     COR asking contractor personnel to “please keep this close to
                     the vest as it is really intended as an inter-government memo.”
                     When asked about this, the COR told us that she sent the email
                     in an attempt to formulate a budget because she felt
                     Burson-Marsteller better understood the costs. She added that
                     obtaining assistance from the contractor when formulating a
                     budget was not how she typically operated. We believe that
                     asking contractor personnel to maintain secrecy about the
                     request for assistance in preparing the cost justification
                     memorandum, and asking for that assistance in the first place,

22
     48 USC §3-101

                     BEP’s Administration of the Burson-Marsteller Public Education and   Page 18
                     Awareness Contract Was Deficient (OIG-13-046)
calls into question the COR’s ability to objectively provide
contract oversight.

Weak Acquisition Management, Human Capital, and
Policies and Procedures

Known Contracting Problems Not Addressed

In July 2006, OPE assessed BEP’s acquisition operations and
found, among other things, deficiencies with pricing analysis,
contract file documentation, small business program
participation, and subcontractor monitoring for compliance with
small business program goals. Two years later, in July 2008,
OPE completed another assessment of BEP’s acquisition
operations and internal controls and found new, as well as
repeat problems. Among the observations highlighted in the
2008 report are (1) a severe staffing shortage, especially in
contract administration; (2) a lack of corporate-level policies,
processes, and controls; (3) inadequate and missing contract file
documentation; (4) concerns with contract administration; and
(5) concerns with the acquisition payment process. In the 2008
report, OPE specifically noted that the Burson-Marsteller contract
file organization was confusing and many documents were
missing.

BEP management was responsible for implementing corrective
actions to address findings resulting from the 2006 and 2008
OPE assessments. As of the start of our audit in April 2011,
many of the deficiencies reported by OPE had not been
corrected. Some are still in the process of being corrected as of
the end of our fieldwork in April 2013.

Our audit of the Burson-Marsteller contract administration
revealed contract oversight weaknesses consistent with findings
from OPE’s reports. Our follow-up on the status of
recommendations made in OPE’s 2006 and 2008 reports
revealed that among other problems, corrective actions had not
been implemented in the areas of file documentation,
subcontractor monitoring for compliance with small business
goals, payment approval processes, and policies and procedures.


BEP’s Administration of the Burson-Marsteller Public Education and   Page 19
Awareness Contract Was Deficient (OIG-13-046)
                      We also found that BEP management did not effectively
                      communicate the results of OPE’s 2006 and 2008 assessments
                      to all appropriate personnel. Specifically, BEP’s Office of
                      Financial Management personnel were not notified of findings
                      related to the payment approval process for contracts even
                      though they have an essential role in implementing corrective
                      action in this area. In addition, control weaknesses in OPE’s
                      reports were not communicated to BEP’s Office of Compliance
                      who was responsible for coordinating BEP’s management
                      assurance process in accordance with OMB Circular A-123,
                      Management’s Responsibility for Internal Control. 23 As such,
                      there was no evidence that the Chief Financial Officer or the
                      Office of Compliance (1) assessed the impact of the control
                      weaknesses identified by OPE as part of the OMB Circular A-123
                      process, (2) monitored corrective actions, or (3) assessed the
                      need for increased monitoring of the acquisition function.

                      BEP management’s lack of timely corrective action and
                      enforcement of regulatory mandates, policies, and internal
                      control guidelines resulted in an increased risk of noncompliant
                      acquisitions and increased costs to the Government.

                      Contracting Policies and Procedures Lacking

                      The Office of Acquisitions employees we interviewed expressed
                      confusion as to whether contract administration guidelines
                      existed or were current. The CO responsible for the
                      Burson-Marsteller contract from June 2010 until the end of the
                      contract referred to BEP’s Contract Administration Guide as the
                      relevant procedures for administering contracts. The Chief of
                      Acquisitions told us that those procedures are outdated, but
                      have not been revised. Other employees told us that each
                      division within the Office of Acquisitions has its own file
                      maintenance processes and acquisition procedures, and there
                      were differences between divisions in carrying out contract
                      administration activities.



23
  OMB Circular A-123, dated December 2004, provides guidance to Federal managers on improving
the accountability and effectiveness of Federal programs and operations by establishing, assessing,
correcting, and reporting on internal controls.

                      BEP’s Administration of the Burson-Marsteller Public Education and       Page 20
                      Awareness Contract Was Deficient (OIG-13-046)
The Chief of Acquisitions acknowledged the lack of uniform/up-
to-date policies and procedures and told us that remediation
efforts are underway. In 2010 he established a policy division
and in mid-2011, the policy division distributed selected FAR
checklists and supplements to the acquisition staff. The policy
division also issued a Contract Planning Policy Guide in March
2012 to establish uniform procedures for basic contract planning
functions as prescribed in the FAR. While these are steps in the
right direction, we believe that based on the responses we were
given by acquisition personnel during this audit and BEP’s track
record, senior management will need to continually and closely
monitor implementation activities until institutionalized.

Acquisition Staff Vacancies

The 2008 OPE report noted that as of March 2008, the Office of
Acquisitions had a staffing vacancy rate of 28 percent. In
addition, at that time, there was a vacancy rate in the contract
administration division of 63 percent. As a result of high
turnover during the life of the Burson-Marsteller contract, the
contract was administered by seven different individuals in the
Office of Acquisitions, with no one assigned to administer the
contract in 2009.

BEP officials told us that the combination of low staffing levels
and employee turnover during the Burson-Marsteller contract
period resulted in contract administration employees having
insufficient resources to perform required functions. In addition,
employee skills were not always appropriately aligned with tasks
assigned and employee morale was low.

BEP officials also stated that attempts were made to hire
additional contract administration resources; however, due to
what they described as a highly competitive market for
contracting personnel throughout most of the period of the
Burson-Marsteller contract, they were unsuccessful. Since 2010,
the Chief of Acquisitions cited improvements in human capital
management of his section, and pointed to the hiring of a
contract administration manager and additional staff, establishing
a policy division, and reorganizing current staffing assignments.
Additionally, BEP management reassessed staffing needs given


BEP’s Administration of the Burson-Marsteller Public Education and   Page 21
Awareness Contract Was Deficient (OIG-13-046)
           the March 2013 transfer of non-manufacturing procurement
           functions to a Treasury shared service provider.


Recommendations
           We recommend that the BEP Director:

           1. Determine whether the problems identified with the Burson-
              Marsteller contract are systemic to overall contracting
              practices and constitute a reportable material weakness in
              program administration under Treasury’s FMFIA process.

               Management Response

               BEP concurred with our recommendation to make this
               determination. BEP’s assessment and determination will be
               based on results of internal reviews required under OMB
               Circular A-123. BEP expects to make a final determination by
               September 30, 2013.

               OIG Comment

               Management’s planned action meets the intent of our
               recommendation.

           2. Direct the Office of Acquisitions to establish standard policies
              and procedures, train employees in the new policies and
              procedures, and implement an accountability plan to ensure
              they are followed. Matters that should be addressed in the
              policies and procedures include, but are not limited to, roles
              and responsibilities of COs, CORs, payment officials, and
              others with respect to (a) ensuring task order awards are
              consistent with contract type, (b) approving subcontracts and
              monitoring contractor performance with subcontracting plans,
              (c) negotiating price on task orders, (d) developing IGCEs,
              (e) ensuring COR contacts with contractors are for
              permissible purposes, (f) reviewing and approving contractor
              invoices for payment, and (g) ensuring proper use of FAR
              clauses in solicitation and contract award documents.




           BEP’s Administration of the Burson-Marsteller Public Education and   Page 22
           Awareness Contract Was Deficient (OIG-13-046)
    Management Response

    BEP concurred with the recommendation. As of October
    2012, BEP’s Office of Acquisition established standard
    policies and procedures in support of the FAR and the
    Department of the Treasury Acquisition Regulation. BEP also
    conducted and will continue to provide training to employees
    to promote adherence to policies and procedures. Among the
    actions taken to address specific policy and procedure issues,
    BEP created a Contract Planning Policy Guide, Contract
    Administration Guidebook, and FAR Check Sheets and
    Reference Guides.

    The management response also identified a number of actions
    taken for items (a) through (g) in the recommendation.

    OIG Comment

    BEP’s actions generally meet the intent of our
    recommendation. It will be important going forward for BEP
    management to exercise continuous oversight of contracting
    activities to ensure the deficiencies cited in this report do not
    reoccur.

3. Direct the Office of Acquisitions to inventory all contract
   files, identify any missing documents, and reconstruct the
   files as necessary.

    Management Response

    BEP Management concurred with this recommendation. An
    inventory of files is ongoing and is expected to be completed
    by September 30, 2013. All Office of Acquisitions personnel
    were trained on proper contract filing. The Office of
    Acquisition, Policy Division was assigned the responsibility
    for maintaining the file room. BEP also established a standard
    filing framework. The Policy Division plans to regularly review
    files to ensure compliance with the File Management Plan.




BEP’s Administration of the Burson-Marsteller Public Education and   Page 23
Awareness Contract Was Deficient (OIG-13-046)
                            OIG Comment

                            Management’s actions taken and planned satisfy the intent of
                            our recommendation. We consider this recommendation open
                            until the file review is complete and files have been
                            reconstructed to meet FAR requirements.

                        4. Implement accountability mechanisms to ensure BEP
                           executives and managers timely and comprehensively address
                           deficiencies and recommendations identified by internal and
                           external reviews, such as acquisition assessments by OPE.

                            Management Response

                            BEP concurred with the recommendation and has put
                            accountability mechanisms into place. BEP’s Office of
                            Compliance tracks findings and corrective actions from
                            external reviews in the Department of the Treasury’s Joint
                            Audit Management Enterprise System (JAMES). 24
                            Additionally, the status of findings reported is reviewed
                            during BEP’s Internal Control Policy Committee and Executive
                            Internal Control Policy Committee meetings. The Office of
                            Compliance will add findings from OPE and similar reviews to
                            BEP’s findings tracking and management review processes.

                            OIG Comment

                            Management’s actions taken and planned satisfy the intent of
                            our recommendation.

                        5. Direct the Office of Compliance to increase the frequency and
                           scope of the monitoring of operational effectiveness, internal
                           control, and compliance with laws and regulations by the
                           Office of Acquisitions.

                            Management Response

                            BEP Management concurred with the recommendation and
                            plans to expand its A-123 Appendix A (Internal Controls Over
                            Financial Reporting) testing beginning the first quarter of
                            fiscal year 2014. BEP plans to establish an oversight

24
     Auditor’s Note: JAMES is Treasury’s audit recommendation tracking system.

                        BEP’s Administration of the Burson-Marsteller Public Education and   Page 24
                        Awareness Contract Was Deficient (OIG-13-046)
    committee to monitor the Office of Acquisition’s progress
    with respect to establishing and meeting plans of action and
    milestones to fully address our recommendations and review
    internal control assessments of BEP’s acquisitions.

    OIG Comment

    BEP’s planned actions meet the intent of our
    recommendation. We consider the recommendation open until
    the planned actions are implemented; BEP will need to
    establish a completion date in JAMES.

6. Ensure that staffing in the Office of Acquisitions is
   commensurate with the BEP’s acquisition activities in light of
   the March 2013 transfer of non-manufacturing activities to a
   Treasury shared service provider. Going forward, BEP should
   work with OPE to identify appropriate recruiting and retention
   strategies when faced with acquisition staffing challenges.

    Management Response

    BEP concurred with the recommendation. BEP has completed
    rightsizing (a staffing to workload assessment) in the Office
    of Acquisitions and has been able to hire staff to address its
    needs. BEP plans to continue to work with OPE to identify
    appropriate recruiting and retention strategies. Staffing in the
    Office of Acquisitions has increased by more than 30 percent
    over the past 18 months.

    OIG Comment

    BEP’s actions satisfy the intent of our recommendation.

7. Direct the Office of Acquisitions to determine whether
   Burson-Marsteller made a good faith effort to comply with its
   subcontracting plan for the 2006 contract. If it is found that
   a good faith effort was not made, BEP should assess the
   appropriate liquidated damages against the contractor.

    Management Response

    BEP’s Office of Chief Counsel will review the facts
    surrounding the contract and assess whether there is a solid

BEP’s Administration of the Burson-Marsteller Public Education and   Page 25
Awareness Contract Was Deficient (OIG-13-046)
    basis for pursing a claim on these grounds. Based on the
    assessment, the Office of Acquisitions will pursue any viable
    claims.

    OIG Comment

    BEP’s planned actions satisfy the intent of our
    recommendation. We consider the recommendation open until
    the planned actions are taken; BEP will need to establish a
    completion date in JAMES.


                             ******
We appreciate the courtesies and cooperation extended by your
staff as we inquired about these matters. Major contributors to
this report are listed in appendix 3. A distribution list for this
report is provided as appendix 4. If you wish to discuss this
report, you may contact me at (202) 927-5904 or Debbie Harker
at (202) 927-5762.

/s/
Kieu T. Rubb
Director, Procurement and Manufacturing Audits




BEP’s Administration of the Burson-Marsteller Public Education and   Page 26
Awareness Contract Was Deficient (OIG-13-046)
Appendix 1
Objectives, Scope, and Methodology




The objective of our audit was to determine whether the Bureau of
Engraving and Printing (BEP) conducted its contracting activities in
accordance with federal and Department of the Treasury (Treasury)
acquisition requirements and BEP policies and procedures. Our
audit scope was focused on BEP’s 2006 Public Education and
Awareness Program contract with Young & Rubicam, Inc., doing
business as Burson-Marsteller (TEP-07-003).

While our original audit scope included a review of additional
contracts, we subsequently decided to limit our review to the 2006
Burson-Marsteller contract. We did so based on (1) BEP’s lack of
progress in implementing corrective actions related to internal
reviews performed in 2006 and 2008 by Treasury’s Office of the
Procurement Executive (OPE), (2) the consistency of our findings
on the Burson-Marsteller contract with those in OPE’s reviews,
(3) the then potential transfer of BEP’s non-manufacturing
procurement activities to a Treasury shared service provider that
subsequently took place in March 2013, and (4) the concerns
raised by the Board of Governors of the Federal Reserve System
(FRB) specific to the Burson-Marsteller contract.

BEP was unable to locate its pre-award files for the 2002 and
2006 Burson-Marsteller contracts, certain invoice packages related
to the 2006 contract, support documentation for invoices from
2007 to 2009, and numerous other contracting documents. We
were able to obtain some of the missing documents from
Burson-Marsteller, including their technical and management
proposals for both contracts, subcontractor documentation, and
invoice documentation. As a result of BEP’s incomplete files, we
were unable to determine whether BEP conducted the contract pre-
award, solicitation, evaluation, and award phases in accordance
with federal and Treasury acquisition regulations and BEP policies
and procedures.

In addressing our audit objective, we conducted fieldwork at BEP’s
Eastern Currency Facility and FRB offices in Washington, DC. We
conducted our fieldwork from April 2011 to April 2013. As part of
our fieldwork,

•   We interviewed BEP’s contracting officers, contracting officer’s
    representative, and public education program personnel involved


BEP’s Administration of the Burson-Marsteller Public Education and   Page 27
Awareness Contract Was Deficient (OIG-13-046)
Appendix 1
Objectives, Scope, and Methodology




    with the 2006 Burson-Marsteller contract. We also interviewed
    other personnel in BEP’s Office of Acquisitions to gain an
    understanding of their knowledge of BEP’s contracting policies
    and procedures. In addition, we interviewed BEP Office of
    Financial Management personnel to gain an understanding of
    BEP’s invoice review, approval, and payment processes.

•   We interviewed BEP’s Chief Financial Officer and Office of
    Compliance staff involved in assurance process reviews of the
    acquisition and payment functions in accordance with the Office
    of Management and Budget (OMB) Circular A-123,
    Management’s Responsibility for Internal Control, dated
    December 2004. We also reviewed the guidance on internal
    controls to understand BEP management’s responsibility to
    assess the internal control environment related to the
    acquisition function.

•   We reviewed OPE‘s 2006, 2008, and 2013 acquisition
    assessment reports for BEP. We interviewed OPE personnel
    involved with the reviews to gain an understanding of the
    assessment process and results of the reviews.

•   We interviewed FRB staff involved in the transfer of the public
    education program from BEP to FRB to gain an understanding of
    the concerns with BEP’s contracting practices.

•   We reviewed federal acquisition regulations and laws, Treasury
    and BEP acquisitions guidance and policies and procedures, and
    federal guidance on internal controls, including:

    o Federal Acquisition Regulation
    o OMB, Guidelines for Assessing the Acquisition Function
      (May 2008)
    o Small Business Act (Public Law 85-536, as amended through
      Public Law 110-246)
    o Department of the Treasury Acquisitions Regulation (June
      2002)
    o Department of the Treasury Acquisitions Procedures
      (June 2011)
    o Federal Managers Financial Integrity Act of 1982
    o OMB Circular A-123


BEP’s Administration of the Burson-Marsteller Public Education and   Page 28
Awareness Contract Was Deficient (OIG-13-046)
Appendix 1
Objectives, Scope, and Methodology




    o U.S. Government Accountability Office, Standards for
      Internal Control in the Federal Government (November 1999)
    o OMB, Office of Federal Procurement Policy, A Guide to Best
      Practices in Contract Administration (October 1994)

•   We reviewed BEP’s 2006 Burson-Marsteller contract files,
    contract administration files, and related documents to the
    extent these were available. We also reviewed the available
    contract and contract administration files for BEP’s 2002
    contract with Burson-Marsteller (TEP-02-15) to obtain an
    understanding of task orders issued during that contract for
    materials fulfillment as well as the pricing analyses performed
    for the task orders issued.

•   We reviewed BEP’s contract payment files for the 2006
    Burson-Marsteller contract to assess the completeness of
    invoicing records and the controls over the invoice review,
    approval, and payment process.

•   We reviewed Burson-Marsteller’s documents for the 2002 and
    2006 public education awareness program, including the
    contractor’s technical and management proposals for the 2002
    and 2006 contracts, subcontractor documentation, invoice
    documentation, and NexGen note public education materials.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




BEP’s Administration of the Burson-Marsteller Public Education and   Page 29
Awareness Contract Was Deficient (OIG-13-046)
Appendix 2
Management Response




BEP’s Administration of the Burson-Marsteller Public Education and   Page 30
Awareness Contract Was Deficient (OIG-13-046)
Appendix 2
Management Response




BEP’s Administration of the Burson-Marsteller Public Education and   Page 31
Awareness Contract Was Deficient (OIG-13-046)
Appendix 2
Management Response




BEP’s Administration of the Burson-Marsteller Public Education and   Page 32
Awareness Contract Was Deficient (OIG-13-046)
Appendix 2
Management Response




BEP’s Administration of the Burson-Marsteller Public Education and   Page 33
Awareness Contract Was Deficient (OIG-13-046)
Appendix 2
Management Response




BEP’s Administration of the Burson-Marsteller Public Education and   Page 34
Awareness Contract Was Deficient (OIG-13-046)
Appendix 2
Management Response




BEP’s Administration of the Burson-Marsteller Public Education and   Page 35
Awareness Contract Was Deficient (OIG-13-046)
Appendix 2
Management Response




BEP’s Administration of the Burson-Marsteller Public Education and   Page 36
Awareness Contract Was Deficient (OIG-13-046)
Appendix 3
Major Contributors to This Report




Deborah L. Harker, Audit Manager
Eileen J. Kao, Auditor-in-Charge
Regina A. Morrison, Auditor
David W. Hash, Auditor
Christen J. Stevenson, Referencer




BEP’s Administration of the Burson-Marsteller Public Education and   Page 37
Awareness Contract Was Deficient (OIG-13-046)
Appendix 4
Report Distribution




The Department of the Treasury

Deputy Secretary
Treasurer of the United States
Assistant Secretary for Management
Office of Strategic Planning and Performance Management
Office of Deputy Chief Financial Officer, Risk and Control Group

Bureau of Engraving and Printing

Director
Audit Liaison

Office of Management and Budget

OIG Budget Examiner

Board of Governors of the Federal Reserve System

Inspector General




BEP’s Administration of the Burson-Marsteller Public Education and   Page 38
Awareness Contract Was Deficient (OIG-13-046)
